                Fair Tax Collection Practices Violations Did
                Not Result in Administrative or Civil Action

                                     July 2004

                       Reference Number: 2004-40-143




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        July 29, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Fair Tax Collection Practices Violations Did
                                     Not Result in Administrative or Civil Action (Audit # 200440003)


       This report presents the results of our review of violations of fair tax collection practices.
       The overall objective of this review was to obtain information on any Internal Revenue
       Service (IRS) administrative or civil actions resulting from fair tax collection practices
       violations by IRS employees.
       Section (§) 1102(d)(1)(G) of the IRS Restructuring and Reform Act of 19981 requires the
       Treasury Inspector General for Tax Administration (TIGTA) to include, in one of its
       semiannual reports to the Congress, information regarding any administrative or civil
       actions related to violations of the fair debt collection provisions of 26 U.S.C. § 6304,
       Fair Tax Collection Practices.2 The IRS has traditionally referred to the § 6304
       violations as “Fair Debt Collection Practices Act3 (FDCPA)” violations. The TIGTA
       semiannual report must provide a summary of the resulting administrative or civil
       actions and include any judgments or awards granted.
       None of the 55 cases coded as potential FDCPA violations and closed on the
       Automated Labor and Employee Relations Tracking System (ALERTS)4 during the
       period January 1 through December 31, 2003, resulted in a reportable administrative
       action against an IRS employee. In addition, there were no civil actions identified that
       resulted in the IRS paying monetary settlements to taxpayers because of an FDCPA
       violation.

       1
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       2
         26 U.S.C. § 6304 (2004).
       3
         15 U.S.C. §§ 1601 note, 1692-1692o (2000).
       4
         The Workforce Relations Division’s ALERTS generally tracks employee behavior that may warrant IRS
       management administrative actions.
                                           2

IRS management has reviewed the draft report and provided their concurrence with its
contents via email. Since no formal response was required, the IRS has agreed that the
report will be issued without one.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                             Fair Tax Collection Practices Violations Did Not
                                  Result in Administrative or Civil Action




                                              Table of Contents


Background ................................................................................................. Page 1
There Were No Fair Tax Collection Practices Violations
Resulting in Administrative Action ............................................................... Page 3
There Were No Fair Tax Collection Practices Civil Actions
Resulting in a Monetary Settlement to a Taxpayer ...................................... Page 3
Appendix I – Detailed Objective, Scope, and Methodology ......................... Page 4
Appendix II – Major Contributors to This Report.......................................... Page 6
Appendix III – Report Distribution List ......................................................... Page 7
Appendix IV – Fair Tax Collection Practices Provisions .............................. Page 8
             Fair Tax Collection Practices Violations Did Not
                  Result in Administrative or Civil Action

                          Section (§) 1102(d)(1)(G) of the Internal Revenue Service
Background
                          (IRS) Restructuring and Reform Act of 19981 requires the
                          Treasury Inspector General for Tax Administration
                          (TIGTA) to include, in one of its semiannual reports to the
                          Congress, information regarding any administrative or civil
                          actions related to violations of the fair debt collection
                          provisions of 26 U.S.C. § 6304, Fair Tax Collection
                          Practices,2 by IRS employees. The IRS has traditionally
                          referred to the § 6304 violations as “Fair Debt Collection
                          Practices Act3 (FDCPA)” violations. The TIGTA
                          semiannual report must provide a summary of the resulting
                          administrative or civil actions and include any judgments or
                          awards granted.
                          Because the Congress did not provide an explanation of
                          what was meant by “administrative actions,” we used the
                          IRS’ definition when determining the number of fair tax
                          collection practices violations to be reported under
                          § 1102(d)(1)(G). The IRS’ definition of administrative
                          actions includes disciplinary actions ranging from
                          admonishment through removal. Lesser actions, such as
                          oral or written counseling, are not considered administrative
                          actions.
                          As originally enacted, the FDCPA included provisions that
                          restricted various collection abuses and harassment in the
                          private sector. These restrictions did not apply to Federal
                          Government practices. However, the Congress believed it
                          was appropriate to require the IRS to comply with
                          applicable portions of the FDCPA and to be at least as
                          considerate to taxpayers as private creditors are required to
                          be with their customers (see Appendix IV for a detailed
                          description of the fair tax collection practices provisions).
                          Taxpayer complaints about IRS employees’ conduct can be
                          reported to several IRS functions for tracking on
                          management information systems. If a taxpayer files a civil
                          action or if IRS management determines that a taxpayer’s
                          fair tax collection practices rights were potentially violated,

                          1
                            Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                          sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                           23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                          2
                            26 U.S.C. § 6304 (2004).
                          3
                            15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                          Page 1
Fair Tax Collection Practices Violations Did Not
     Result in Administrative or Civil Action

             the complaint could be referred and then tracked on one or
             both of the following IRS systems:
             •   The Workforce Relations Division’s Automated Labor
                 and Employee Relations Tracking System (ALERTS),
                 which generally tracks employee behavior that may
                 warrant IRS management administrative actions.
             •   The Office of Chief Counsel’s Counsel Automated
                 System Environment (CASE), which is an inventory
                 control system that tracks items such as taxpayer civil
                 actions or bankruptcies.
             The IRS implemented codes to track fair tax collection
             practices violations on the ALERTS in March 1999 and on
             the CASE in June 1999.
             For the Fiscal Year (FY) 2004 review, we analyzed closed
             cases from the ALERTS and the CASE to identify fair tax
             collection practices violations. However, we could not
             ensure the cases recorded on the ALERTS and the actions
             recorded on the CASE included all the fair tax collection
             practices violations. As previously stated in our FY 2000
             report on the FDCPA,4 the data captured on the ALERTS
             related to potential FDCPA violations might not always be
             complete and accurate. In this audit, we did not attempt to
             determine the accuracy or consistency of disciplinary
             actions taken against employees for fair tax collection
             practices violations that were not reported to the Workforce
             Relations Division.
             We conducted this audit in the Agency-Wide Shared
             Services, Chief Counsel, and Human Capital offices in the
             IRS National Headquarters in Washington, D.C., during the
             period March through June 2004. The audit was conducted
             in accordance with Government Auditing Standards.
             Detailed information on our audit objective, scope, and
             methodology is presented in Appendix I. Major
             contributors to the report are listed in Appendix II.




             4
              The Identification and Reporting of Potential Fair Debt Collection
             Practices Act Violations Can Be Improved (Reference
             Number 2000-10-109, dated August 2000).
                                                                            Page 2
                       Fair Tax Collection Practices Violations Did Not
                            Result in Administrative or Civil Action

                                    None of the 55 cases coded as potential violations and
There Were No Fair Tax
                                    closed on the ALERTS during the period January 1 through
Collection Practices Violations
                                    December 31, 2003, resulted in an administrative action
Resulting in Administrative
                                    against an IRS employee for violating fair tax collection
Action
                                    practices.
                                    While oral or written counseling is not an administrative
                                    action under the IRS definition, we did note from the
                                    ALERTS information that one employee received written
                                    counseling for a fair tax collection practices violation during
                                    our audit period. The counseling emphasized to the
                                    employee the importance of exercising professional conduct
                                    while conducting official business. Since the IRS does not
                                    routinely track all informal oral counseling or minor actions
                                    against its employees, it is impossible to determine how
                                    often and for what reasons informal, oral counseling or
                                    other minor disciplinary actions occurred. Nevertheless,
                                    such conduct as exhibited in this case can violate the rights
                                    of the taxpayer and impair the IRS’ ability to meet its
                                    mission of providing top-quality customer service.
                                    There were no cases closed on the CASE in which the IRS
There Were No Fair Tax
                                    paid damages to taxpayers resulting from a civil action filed
Collection Practices Civil
                                    due to a fair tax collection practices violation. From
Actions Resulting in a Monetary
                                    January 1 through December 31, 2003, the CASE included
Settlement to a Taxpayer
                                    only one closed civil action case coded as an FDCPA
                                    violation. Our review of the case documentation indicated
                                    the violation was improperly coded with the FDCPA
                                    subcategory code.




                                                                                            Page 3
                          Fair Tax Collection Practices Violations Did Not
                               Result in Administrative or Civil Action

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to obtain information on any Internal Revenue Service
(IRS) administrative or civil actions resulting from fair tax collection practices violations1 by IRS
employees.
To accomplish our objective, we:
I.      Determined the number of fair tax collection practices violations resulting in
        administrative actions.
        A. Obtained a computer extract from the Automated Labor Employee Relations
           Tracking System (ALERTS)2 of all 55 cases that were opened after July 22, 1998,
           and closed during the period January 1 through December 31, 2003, as Fair
           Debt Collection Practices Act3 (FDCPA) violations. The computer extract
           contained 55 cases.
        B. Determined whether any of the FDCPA-coded cases resulted in administrative action.
II.     Determined the number of fair tax collection practices violations resulting in civil actions
        (judgments and awards granted).
        A. Obtained a computer extract from the Counsel Automated System Environment
           (CASE)4 of the Subcategory 6304 (established to track FDCPA violations) cases
           opened after July 22, 1998, and closed during the period January 1 through
           December 31, 2003. The Office of Chief Counsel identified one case.
        B. Determined whether the FDCPA-coded case resulted in civil judgments or awards.




1
  26 U.S.C. § 6304 (2004).
2
  The Workforce Relations Division’s ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
4
  The CASE is an Office of Chief Counsel inventory control system that tracks items such as taxpayer civil actions
or bankruptcies.




                                                                                                           Page 4
                      Fair Tax Collection Practices Violations Did Not
                           Result in Administrative or Civil Action

Note: We used ALERTS and CASE data provided by the IRS and did not determine whether the
data provided were complete. Our validation consisted of reviewing case file documentation to
ensure a potential fair tax collection practices violation existed and comparing the information in
the case files to the data received. The IRS could not locate the case file documentation for one
case. However, based on our review of the other 54 cases, we concluded that we could rely on
the accuracy of the information recorded in the ALERTS. Based on that information, we
concluded that this case was not a fair tax collection practices violation. For cases in which fair
tax collection practices violations were in question, we consulted with the Treasury Inspector
General for Tax Administration Office of Chief Counsel.




                                                                                           Page 5
                     Fair Tax Collection Practices Violations Did Not
                          Result in Administrative or Civil Action

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Nelva U. Blassingame, Lead Auditor
Jean Kao, Auditor
Stephanie McFadden, Auditor




                                                                                         Page 6
                    Fair Tax Collection Practices Violations Did Not
                         Result in Administrative or Civil Action

                                                                       Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Human Capital Officer OS:HC
Director, Personnel Field Services OS:HC:PS
Director, Workforce Relations OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Counsel CC
       Chief Human Capital Officer OS:HC




                                                                            Page 7
                           Fair Tax Collection Practices Violations Did Not
                                Result in Administrative or Civil Action

                                                                                                    Appendix IV


                             Fair Tax Collection Practices Provisions

To ensure equitable treatment among debt collectors in the public and private sectors, the
Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the IRS to
comply with certain provisions of the Fair Debt Collection Practices Act.2 These provisions are
referred to as fair tax collection practices procedures.3 Specifically, the IRS may not
communicate with taxpayers in connection with the collection of any unpaid tax:
•   At unusual or inconvenient times.
•   If the IRS knows the taxpayer has obtained representation from a person authorized to
    practice before the IRS, and the IRS knows or can easily obtain the representative’s name
    and address.
•   At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
    communication is prohibited.
Further, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
•   The use or threat of violence or harm.
•   The use of obscene or profane language.
•   Causing a telephone to ring continuously with harassing intent.
•   The placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
3
  26 U.S.C. § 6304 (2004).
                                                                                                              Page 8
